Highlights
Table of Contents




                    Monitoring of
                    Government
                    Travel Card
                    Transactions
Findings
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    DP-MA-14-002
                    June 25, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                                          Background                                                           In addition, travel card coordinators for the U.S. Postal
                                                                                                                                             Inspection Service and Postal Service Headquarters need
                                                                        Citibank issues VISA branded SmartPay 2® cards to
                                                                                                                                             to better monitor purchases. We judgmentally selected 486
                                                                        U.S. Postal Service employees for use on official travel. The
                                                                                                                                             purchase transactions based on potential noncompliance with
                                                                        Postal Service has travel card coordinators who monitor
                                                                                                                                             travel policy and the amount of the transaction. We found
                                                                        employee card use to identify transactions that could indicate
                                                                                                                                             282 purchases totaling $55,516 that were not identified by
Findings




                                                                        misuse such as nontravel related purchases or unauthorized
                                                                                                                                             coordinators for follow up with employees’ managers. We also
                                                                        cash advances. There were 44,104 government travel cards
                             The Postal Service has                                                                                          determined the Postal Service did not process cardholder
                                                                        issued to Postal Service personnel as of January 15, 2014.
                                                                                                                                             personnel changes in a timely manner to allow coordinators to
                                                                        From April 1, 2012, through March 31, 2013, employees made
                               eliminated use of the                                                                                         monitor travel card transactions.
                                                                        247,419 purchases totaling about $44.9 million and 8,793 cash
                       travel card for cash advances                    advances totaling about $1.6 million.                                Although individual employee cardholders are responsible
                                                                                                                                             for repayment of all cash advances and payment for all items
                       by officers, senior executives,                  Our objective was to determine whether Postal Service
Recommendations




                                                                                                                                             purchased with their travel cards, effective monitoring of travel
                                                                        travel card coordinators were effectively monitoring government
                             Inspection Service and                                                                                          card transactions reduces the risk of credit card delinquencies
                                                                        travel card transactions. Specifically, we evaluated the internal
                                                                                                                                             or negative publicity when employees misuse their travel cards.
                         non-bargaining employees.                      controls managed by the travel card coordinators, but did
                                                                        not determine the appropriateness of individual travel card
                                                                        transactions.

                                                                        What The OIG Found
                                                                        Postal Service travel card coordinators need to more effectively
                                                                        monitor cash advances. We judgmentally selected 1,832 cash
                                                                        advances for review based on noncompliance with Postal
Appendices




                                                                        Service travel policy. We found travel coordinators did not
                                                                        identify for further review 1,260 transactions, totaling $215,466,
                                                                        that potentially did not comply with travel policy.


                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                     Print                                   1
Highlights
Table of Contents




                                                                        Recently, the Postal Service implemented changes to its travel          What The OIG Recommended
                                                                        policy to better manage travel card use by employees and
                                                                                                                                                We recommended the acting vice president, Controller, develop
                                                                        improve oversight of cash advances and purchase transactions.
                                                                                                                                                and implement written criteria for travel card coordinators to
                                                                        Specifically, the Postal Service has eliminated use of the travel
                                                                                                                                                monitor travel card transactions and take action as appropriate.
                                                                        card for cash advances by officers, senior executives, the
                                                                                                                                                We also recommended the Postal Service establish procedures
                                                                        Postal Inspection Service, and nonbargaining employees.
Findings




                                                                                                                                                to ensure cardholder personnel changes are updated timely.
                                                                        We referred certain cash advance and purchase transactions to
                                                                        our Office of Investigations.



                                                                                                                  Cardholder Purchases        Cardholder Purchases
                                                                                                                   Made While NOT on              Made While                     Grand Total
Recommendations




                                                                                                                     Official Travel            on Official Travel



                                                                                                    Purchase Transactions for Postal Inspection Service and Postal Service Headquarters by
                                                                                                              Category, Not Identified by Travel Card Coordinators for Follow Up


                                                                                                                  Roll over the categories to reveal detailed information.


                                                                                                       We found 282 purchases that Postal Inspection Service and Postal Service
                                                                                                     Headquarters travel card coordinators did not identify for further follow up with
                                                                                                    employees’ managers. The majority of these purchases, 269 of 282, were made by
                                                                                                                      employees who were not on official travel.
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                             Print                             2
Highlights
                    Transmittal Letter


                                                                        June 25, 2014
Table of Contents




                                                                        MEMORANDUM FOR:	           SCOTT G. DAVIS
                                                                        				                       ACTING VICE PRESIDENT, CONTROLLER


                                                                                                       E-Signed by Janet Sorensen
                                                                                                  VERIFY authenticity with eSign Desktop



                                                                        				

                                                                        FROM: 			                  Janet M. Sorensen
                                                                        				                       Deputy Assistant Inspector General
                                                                        				                        for Revenue and Resources
Findings




                                                                        SUBJECT: 			               Management Advisory Report – Monitoring of Government
                                                                        				                       Travel Card Transactions
                                                                        				                       (Report Number DP-MA-14-002)

                                                                        This report presents the results of our review of the Monitoring of Government Travel
                                                                        Card Transactions (Project Number 13RG036DP000).
Recommendations




                                                                        We appreciate the cooperation and courtesies provided by your staff. If you have
                                                                        any questions or need additional information, please contact Kevin H. Ellenberger,
                                                                        director, Data Analysis and Performance, or me at 703-248-2100.

                                                                        Attachment

                                                                        cc: Corporate Audit and Response Management
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                            Print               3
Highlights
                    Table of Contents
                                                                        Cover
                                                                        Highlights.......................................................................................................1
                                                                         Background.................................................................................................1
                                                                         What The OIG Found..................................................................................1
                                                                         What The OIG Recommended...................................................................2
Table of Contents




                                                                        Transmittal Letter...........................................................................................3
                                                                        Findings.........................................................................................................5
                                                                         Introduction.................................................................................................5
                                                                         Conclusion..................................................................................................6
                                                                         Monitoring Travel Card Transactions .........................................................6
                                                                           Cash Advances .......................................................................................7
                                                                           Purchase Transactions ............................................................................7
                                                                        Recommendations...................................................................................... 11
                                                                         Evaluation of Management’s Comments.................................................. 11
Findings




                                                                        Appendices..................................................................................................12
                                                                         Appendix A: Additional Information...........................................................13
                                                                           Background ...........................................................................................13
                                                                           Objective, Scope, and Methodology.......................................................14
                                                                           Prior Audit Coverage..............................................................................15
                                                                         Appendix B: Other Impact.........................................................................16
Recommendations




                                                                         Appendix C: Management’s Comments...................................................17
                                                                        Contact Information.....................................................................................18
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                  Print                      4
Highlights
                    Findings                                            Introduction
                                                                        This report presents the results of our self-initiated review of the Monitoring of Government Travel Card Transactions (Project
                                                                        Number 13RG036DP000). For fiscal year (FY) 2013, the U.S. Postal Service Office of Inspector General (OIG) conducted a series
                                                                        of reviews of how effectively certain Postal Service areas monitored travel card transactions. We judgmentally selected the Postal
                                                                        Service areas we reviewed based on discussions with management and the risk analyses we conducted. This capping report
                                                                        summarizes those results, as well as our additional analysis of coordinators from the U.S. Postal Inspection Service and Postal
                                                                        Service Headquarters. Our objective was to determine whether Postal Service travel card coordinators were effectively monitoring
                                                                        government travel card transactions. See Appendix A for additional information about this review.
Table of Contents




                                                                        The Postal Service provides individual government travel cards to designated employees for use while on official travel.
                                                                        Postal Service policy governs employees’ use of the cards for all charges and automated teller machine (ATM) withdrawals.
                                                                        This policy prohibits employees from using the card for personal business. As of January 15, 2014, the Postal Service had 44,104
                                                                        government travel cardholders. Travel cardholders made 247,419 purchases totaling $44.9 million and took 8,793 cash advances
                                                                        totaling $1.6 million from April 1, 2012, through March 31, 2013.

                                                                        Cardholders must repay all cash advances and pay for all items purchased with the travel card. However, cardholders also must
                                                                        comply with Handbook F-151 when traveling on official business. To monitor compliance with card use and effectively administer
                                                                        the travel card program, the Postal Service designates employee travel card coordinators in each Postal Service district and area
                                                                        as well as each division of the Postal Inspection Service and Postal Service Headquarters. These coordinators review Citibank
                                                                        transaction reports for unusual activity, misuse, or abuse by Postal Service employees. To assist the travel card coordinators,
Findings




                                                                        Citibank provides reports showing all card activity. Using these reports, the coordinators monitor government travel card purchases
                                                                        for nontravel related activity or potential misuse and for cash advances greater than $50 per travel day. The coordinators also
                                                                        examine transactions that indicate potential misuse by reviewing travel expense reports contained in the Postal Service’s eTravel2
                                                                        system to determine whether the transactions are related to official travel.
Recommendations
Appendices




                                                                        1	 Handbook F-15, Travel and Relocation, May 2011.
                                                                        2	 eTravel is a web-based system that automates the expense management process. The eTravel system enables Postal Service employees to manage their business travel
                                                                           expenses; create, review, and submit expense reports; and access policy compliance information.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                        Print                                            5
Highlights                                                              Conclusion
                                                                        Postal Service travel card coordinators need to more effectively monitor cash advances. We reviewed all 4,054 cash advances
                                                                        from April 2012 through March 2013 in three postal areas and in the Postal Inspection Service and Postal Service Headquarters,
                                                                        totaling more than $760,000. We judgmentally selected and analyzed 1,832 cash advances and found 1,260 cash advances,
                                                                        totaling $215,466, that were not identified by travel card coordinators but that potentially did not comply with Postal Service travel
                                                                        policy. These cash advances were unrelated to official travel, exceeded the amount Postal Service policy allows, or occurred too
                                                                        early for travel.
                           Postal Service travel card
Table of Contents




                                                                        In addition, we reviewed more than 180,000 purchase transactions in three postal areas, the Postal Inspection Service, and
                          coordinators need to more                     Postal Service Headquarters totaling $32.5 million that occurred from April 2012 through March 2013. We found that area travel
                            effectively monitor cash                    card coordinators sufficiently monitored travel card purchase transactions; however, coordinators for the Postal Inspection
                                                                        Service and Postal Service Headquarters could better monitor purchase transactions. There were 114,661 Postal Inspection
                                        advances.                       Service and Postal Service Headquarters purchase transactions from April 2012 through March 2013. We judgmentally selected
                                                                        and analyzed 486 purchase transactions and found 282 of 486 were not identified for follow up by travel card coordinators. In
                                                                        addition, we determined the Postal Service did not process cardholder personnel changes in a timely manner to give coordinators
                                                                        the opportunity to effectively monitor travel card transactions. We referred certain instances of cash advance and purchase
                                                                        transactions to our Office of Investigations.

                                                                        Monitoring Travel Card Transactions
                                                                        Coordinators need to more effectively monitor and identify cash advance and purchase transactions for follow up with employees’
Findings




                                                                        managers. We identified 1,832 cash advances in the three areas, the Postal Inspection Service, and Postal Service Headquarters.
                                                                        Of those, we determined that area travel card coordinators did not identify 378 of 922 (or 41 percent) cash advances that
                                                                        potentially did not comply with Postal Service travel policy. We also found 882 of 910 of cash advances we reviewed from
                                                                        Postal Inspection Service and Postal Service Headquarters personnel were not identified by travel card coordinators for follow-up.

                                                                        We also identified 282 purchases totaling $55,516 from Postal Inspection Service and Postal Service Headquarters cardholders
                                                                        that were not identified by the coordinator for follow up with employees’ managers.3 We referred certain instances of cash
Recommendations




                                                                        advance and purchase transactions to our Office of Investigations. Although individual employee cardholders are responsible
                                                                        for re-payment of all cash advances and payment for all items purchased with the travel card, effective monitoring of travel card
                                                                        transactions, including cash advances and purchases, reduces the risk of credit card delinquencies or negative publicity
                                                                        when employees misuse their travel cards. Abuse of the travel card could also harm the Postal Service’s contractual relationship
                                                                        with Citibank.
Appendices




                                                                        3	 There were 337 purchase transactions totaling $27,498 that were identified during the Northeast, Southern, and Western area audits; however, these amounts were not
                                                                           published in the area reports.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                            Print                                                6
Highlights                                                              Cash Advances
                                                                        Travel card coordinators did not identify 378 cash advances totaling more than $81,000 in three Postal Service areas. These
                                                                        advances occurred from April 2012 through March 2013. During the same period, Postal Inspection Service and Postal Service
                                                                        Headquarters coordinators failed to detect 882 instances of cash advances totaling $134,077 (see Appendix B). These cash
                                                                        advances appeared to have been unrelated to official travel, exceeded the amount Postal Service policy allows, or occurred too
                                                                        early. Specifically, we noted:

                                                                        ■■ 601 cash advances with no related official travel.4
Table of Contents




                                                                        ■■ 644 cash advances in which employees took cash in excess of the limit of $50 a day or $350 a week.5

                                                                        ■■ 15 instances in which employees took their advance more than 5 days before the trip.6

                                                                        Purchase Transactions
                                                                        We found 282 purchases that Postal Inspection Service and Postal Service Headquarters travel card coordinators did not identify
                                                                        for follow-up with employees’ managers.7 The majority of these purchases (269 of 282) were made by employees who were not on
                                                                        official travel. For example, employees who were not on official travel used their travel cards to buy groceries at supermarkets and
                                                                        meals at restaurants. The remaining 13 purchases occurred while employees were on official travel and used the card to pay for
                                                                        meals totaling more than $100 per transaction. Table 1 shows the number of purchases by category for Postal Inspection Service
                                                                        and Postal Service Headquarters. These purchases were not identified by travel card coordinators
Findings




                                                                        and totaled $55,516 (see Appendix B).
Recommendations
Appendices




                                                                        4	   Handbook F-15, Section 3-2.4.
                                                                        5	   Handbook F-15, Section 4-2.1.2.
                                                                        6	   Handbook F-15, Section 4-2.3.2.
                                                                        7	   Handbook F-15, Section 3-2.1.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                   Print                                   7
Highlights                                                              Table 1. Purchase Transactions for Postal Inspection Service and Postal Service Headquarters by
                                                                        Category, Not Identified by Travel Card Coordinators for Follow Up

                                                                                                                                                                  Postal Service
                                                                                                                         Postal Inspection Service                Headquarters                        Totals
                                                                                                Transactions
                                                                        Transaction             Type                         Number           Amount                 Number           Amount          Number Amount
                                                                                                Grocery Stores                   26           $1,146                     17           $2,876              43          $4,022
                                                                                                +Supermarkets
                                                                                                Charitable and
Table of Contents




                                                                                                Social Service                   12           $5,510                      9           $2,356              21          $7,866
                                                                                                Organizations
                                                                                                Membership
                                                                        Cardholder              Organizations –
                                                                        Purchases                                                29           $10,281                    35           $8,146              64          $18,427
                                                                                                Not Elsewhere
                                                                        Made While              Classified
                                                                        NOT on
                                                                        Official Travel         Government
                                                                                                Services – Not                   14           $226                        6           $927                20          $1,153
                                                                                                Elsewhere
                                                                                                Classified
                                                                                                Eating Places                     0           0                          35           $4,757              35          $4,757
                                                                                                Restaurants
                                                                                                Miscellaneous1                   50           $4,149                     36           $7,674              86          $11,823
Findings




                                                                        Cardholder
                                                                        Purchases       Eating Places/                            0           0                          13           $7,468                  13      $7,468*
                                                                        made While on Restaurants
                                                                        Official Travel
                                                                                        TOTAL                                   131           $21,312                    151          $34,204             282         $55,516
                                                                        Note: *The amounts of these purchases exceeded $100.
                                                                        Source: OIG analysis, April 2014.
                                                                        1 Transaction types that contained fewer than six purchases for both the Postal Inspection Service and Postal Service Headquarters.
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                                              Print             8
Highlights                                                              Table 2 shows the number of cash advance transactions listed by type and purchase transactions with their respective totals in the
                                                                        areas, the Postal Inspection Service, and Postal Service Headquarters that were not detected by travel card coordinators.

                                                                        Table 2. Cash Advance and Purchase Transactions Not Identified by Travel Card Coordinators

                                                                                                                                                                             Postal     Postal
                                                                                                                       Northeast Southern Western                            Inspection Service
                                                                         Transaction            Type                   Area*     Area*    Area*                              Service    Headquarters Total
                                                                         Cash                   Transactions           12                209               157               199                 683                      1,260
Table of Contents




                                                                         Advance                Amount                 $2,844            $53,115           $25,430           $52,101             $81,976                  $215,466
                                                                                                Transactions           46                70                221               131                 151                      619
                                                                         Purchase
                                                                                                Amount                 $4,037            $4,397            $19,064           $21,312             $34,204                  $83,014
                                                                                                Transactions           58                279               378               330                 834                      1,879
                                                                         Totals
                                                                                                Amount                 $6,881            $57,512           $44,494           $73,413             $116,180                 $298,480
                                                                         Note: *The purchase transactions listed for the Northeast, Southern and Western area audits were not identified in the previously issued area audit reports
                                                                         because they represented 1 percent or less of the total number of transactions reviewed.
                                                                         Source: OIG analysis, April 2014.


                                                                        The travel card coordinators did not identify the cash advance and purchase transactions because they did not receive guidance to
                                                                        monitor all of the indicators that would alert them to potential uses of the card that did not comply with Postal Service travel policy.

                                                                        Further, transactions that potentially did not comply with Postal Service travel policy were undetected because travel card
Findings




                                                                        coordinators did not review Citibank transaction reports for cardholders who had been transferred to new locations. Postal Service
                                                                        policy requires the cardholder to notify the travel card coordinator of his or her new location so the Postal Service can process the
                                                                        personnel change in a timely manner. When cardholders do not do this, the coordinator does not have the opportunity to monitor
                                                                        transactions for those employees during routine reviews.

                                                                        In a previous audit related to travel card transactions, the OIG recommended the Postal Service develop procedures for travel
                                                                        card coordinators to use VISA® IntelliLink8 to detect misuse and notify approving officials as appropriate.9 While the Postal Service
Recommendations




                                                                        initially used IntelliLink for this monitoring in response to the 2011 recommendation, it eventually decided to implement the Citibank
                                                                        data system,10 which allows travel card coordinators to run custom activity reports for travel card transaction monitoring. This
                                                                        system gives the coordinators easier access to electronic reports and more tools and options to identify misuse and unusual
                                                                        activity. The Postal Service provided Citibank system training to all of the travel card coordinators beginning in March 2013.
                                                                        However, the coordinators were not given written guidance or criteria to monitor indicators such as use of the travel card for cash
                                                                        advances exceeding allowable limits or for personal or other purchases that did not comply with Postal Service travel policy.
Appendices




                                                                        8	 A web-based information services application that allows access to information that can better detect misuse.
                                                                        9	 Compliance with Travel Policies and Opportunities for Cost Savings (Report Number FF-AR-11-007, dated February 9, 2011).
                                                                        10	 The Postal Service has access to Citibank online automated tools, such as the Program Audit Tool, to enhance the travel card coordinators’ ability to monitor cardholder
                                                                            transactions for potential misuse and fraud.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                                               Print                                   9
Highlights                                                              During our reviews of the three Postal Service areas, management initiated corrective actions by distributing standard operating
                                                                        procedures for travel card coordinators to use when monitoring travel card use for potential fraud or abuse. Also, in response to
                                                                        the audit, the Postal Inspection Service recently issued procedures to guide coordinators in monitoring for misuse or abuse of
                                                                        travel cards. We believe these reports, tools, and procedures will enhance the area and district travel card coordinators’ ability to
                                                                        monitor travel card transactions.

                                                                        Recently, Postal Service management informed us that they implemented changes to Postal Service travel policy to better
                                                                        manage travel card use by employees and provide better oversight of cash advances and purchase transactions.
                         Area management initiated
                                                                        Specifically, the Postal Service has eliminated use of the travel card for cash advances by officers, senior executives, the
Table of Contents




                               corrective actions by                    Postal Inspection Service, and nonbargaining employees. Also, the Postal Service will provide additional guidance to travel card
                                                                        coordinators to more effectively monitor, on a monthly basis, all travel card transactions made by Postal Service employees.
                      distributing standard operating
                          procedures for travel card
                           coordinators to use when
                       monitoring travel card use for
                           potential fraud or abuse.
Findings
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                     Print                                  10
Highlights
                    Recommendations                                     We recommend the acting vice president, Controller:

                                                                        1.	 Develop and implement written procedures to ensure travel card coordinators monitor all cash advances and purchases and
                                                                            take appropriate actions when those transactions do not comply with Postal Service travel policies.

                                                                        2.	 Develop and implement written procedures to ensure that all personnel changes are properly and promptly updated for
                                                                            cardholders in the Citibank data system, and travel card coordinators review active cardholder lists quarterly for accuracy,
                                                                            reporting any personnel differences to the travel card program manager.
                                   We recommend
Table of Contents




                          management develop and                        Managements Comments
                                                                        Management agreed with the findings and recommendations.
                           implement written criteria
                         for travel card coordinators                   Regarding recommendation 1, management will develop and implement procedures for travel card coordinators to effectively
                                                                        monitor travel card activity each month.
                              to monitor travel card
                                                                        Regarding recommendation 2, these procedures will also include a process to ensure personnel changes are accurately updated.
                        transactions and take action                    Management will issue the revised procedures by August 25, 2014. In addition, the Postal Service revised its policy to reflect
                                                                        the elimination of cash advances for nonbargaining unit employees using the cash withdrawal feature of the government-issued
                                    as appropriate.
                                                                        individually billed travel card.
Findings




                                                                        See Appendix C for management’s comments, in their entirety.

                                                                        Evaluation of Management’s Comments
                                                                        The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
                                                                        identified in the report.
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                    Print                                  11
Highlights
                    Appendices


                                                                        Appendix A: Additional Information..............................................................13
                                                                         Background ..............................................................................................13
                        Click on the appendix title to                   Objective, Scope, and Methodology.........................................................14
Table of Contents




                          the right to navigate to the                   Prior Audit Coverage.................................................................................15
                                                                        Appendix B: Other Impact...........................................................................16
                                   section content.
                                                                        Appendix C: Management’s Comments......................................................17
Findings
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                             Print                     12
Highlights          Appendix A:                                         Background
                    Additional Information                              The Postal Service uses the General Services Administration (GSA) SmartPay 2 program to administer the travel card program.11
                                                                        Citibank, the Postal Service’s travel card provider, issues VISA-branded SmartPay 2 cards to Postal Service employees for use
                                                                        on official travel. The travel cards also provide access to ATMs for cash advances.

                                                                        Figure 1. GSA SmartPay 2 Travel Card
Table of Contents
Findings




                                                                        Source: https://smartpay.gsa.gov/cardholders


                                                                        Employees can use the individually billed travel cards for transportation, lodging, and other travel-related expenses when on
                                                                        official business. The card is in the employee’s name and charges are billed directly to him or her for payment. Postal Service
                                                                        policy states that employees may not use their official government travel card for personal business and limits cash advances to
                                                                        $50 per day of official travel.12
Recommendations




                                                                        Each Postal Service area and district office, Postal Inspection Service division, and Postal Service Headquarters department has
                                                                        a travel card coordinator to help administer the travel card program. Besides providing administrative support for employees, these
                                                                        coordinators monitor and identify transactions such as purchases of nontravel related items, cash advances taken that were not in
                                                                        accordance with travel policy, and other transactions that indicate misuse or unusual activity.
Appendices




                                                                        11	 Manages a set of master contracts through which agencies, including the Postal Service, can obtain credit cards for employees to accomplish their mission.
                                                                        12	 Postal Service stated that Handbook F-15 will be changed for ATM/Cash Advances from the current $50 per day of official travel, to an established maximum allowable
                                                                            amount per week, currently being determined by management.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                             Print                                                13
Highlights                                                              Objective, Scope, and Methodology
                                                                        Our objective was to determine whether Postal Service travel card coordinators were effectively monitoring government travel card
                                                                        transactions. To accomplish this objective:

                                                                        ■■ In the Northeast, Southern, and Western Postal Service areas, we reviewed 922 high-risk transactions listed on the VISA
                                                                           IntelliLink13 report that occurred from April 2012 through March 2013 to identify employees who potentially took ATM cash
                                                                           advances while not on official travel. We also tested for employees who withdrew more than $50 per day of official travel and
                                                                           who received cash advances more than 5 days before their travel began.
Table of Contents




                                                                        ■■ For the Postal Inspection Service and Postal Service Headquarters we reviewed all 3,132 cash advance transactions listed
                                                                           on the Citibank transaction history report from April 2012 through March 2013 to identify who took ATM cash advances
                                                                           while not on official travel. We also tested for employees who withdrew more than the $50 per day maximum. We identified
                                                                           910 transactions and submitted this list of transactions to Postal Inspection Service and Postal Service Headquarters travel
                                                                           coordinators to determine whether coordinators identified any of the transactions in their review that required follow up with the
                                                                           employee’s manager.

                                                                        ■■ During the Northeast, Southern, and Western postal area reviews we examined all ATM cash advances to determine whether
                                                                           any were taken at gambling locations.

                                                                        ■■ For the three areas, Postal Inspection Service, and Postal Service Headquarters, we reviewed 180,252 purchase transactions
                                                                           listed on the Citibank transaction history report from April 2012 through March 2013 to identify employees who used their travel
Findings




                                                                           cards while not on official travel.

                                                                        ■■ For the Postal Inspection Service and Postal Service Headquarters, we eliminated from our review all of the allowable travel-
                                                                           related purchases such as airline tickets, hotels, and car rentals. We also judgmentally removed from our review purchase
                                                                           transactions that allow the use of the travel card as a method of payment. These include expenses such as investigative
                                                                           expenses, conference and seminar fees, and fuel. We included in our review those purchases that could indicate potential
                                                                           travel card misuse such as purchases made at grocery stores, supermarkets, and for membership organizations. Once these
Recommendations




                                                                           purchase transactions selections were identified, we conducted a review and analysis on the remaining purchase transactions
                                                                           to determine whether the cardholder was on official travel when making these purchases. We identified 486 purchase
                                                                           transactions and submitted this list of transactions to Postal Inspection Service and Postal Service Headquarters travel
                                                                           coordinators to determine whether the coordinators identified any of the transactions in their review that required follow up with
                                                                           the employee’s manager.

                                                                        ■■ We interviewed all travel card coordinators to determine their knowledge of the roles and responsibilities associated with
                                                                           monitoring government travel card transactions.

                                                                        ■■ We used the Postal Service eTravel system to research claims for travel reimbursement to determine whether employees were
                                                                           on official business during the period they made cash advances and purchases using the travel card.
Appendices




                                                                        We conducted this review from May 2013 through June 2014, in accordance with the Council of the Inspectors General on
                                                                        Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
                                                                        management on March 26, 2014, and included their comments where appropriate.

                                                                        13	 A web-based information-services application that allows access to information that can better detect misuse.
                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                                            Print          14
Highlights                                                              We assessed the reliability of VISA IntelliLink and Citibank data by cross-validating cash advances and purchases against official
                                                                        travel recorded in eTravel and used the responses of area and district travel card coordinators, the Postal Inspection Service,
                                                                        and Postal Service Headquarters as additional validation. We determined the data were sufficiently reliable for the purposes of
                                                                        this report. We also compared selected transactions to the eTravel system for accuracy and found the data to be reliable for
                                                                        our purposes.

                                                                        Prior Audit Coverage
                                                                                                                                                                      Monetary Impact
Table of Contents




                                                                        Report Title                 Report Number                     Final Report Date              (in millions)
                                                                        Monitoring of Government
                                                                        Travel Card Transactions     DP-MA-14-001                    12/9/2013                         None
                                                                        in the Western Area
                                                                        Report Results: Western Area travel card coordinators effectively monitored most government travel card transactions. However,
                                                                        travel card coordinators can better monitor cash advances. Specifically, we identified 157 instances totaling $25,430 of inappropriate
                                                                        cash advances for travel from April 2012 through March 2013. Management took corrective action during the review. As a result the
                                                                        report contained no recommendations.

                                                                        Monitoring of Government
                                                                        Travel Card Transactions    DP-MA-13-004                       8/30/2013                      None
                                                                        in the Northeast Area
                                                                        Report Results: The Northeast Area travel card coordinators were effectively monitoring government travel card transactions. We
                                                                        noted only minor instances of potential improper uses of the travel card. The report contained no recommendations.
Findings




                                                                        Monitoring of Government
                                                                        Travel Card Transactions      DP-MA-13-003                     8/30/2013                      None
                                                                        in the Southern Area
                                                                        Report Results: The Southern Area travel card coordinators were effectively monitoring government travel card transactions.
                                                                        However, travel card coordinators can better monitor cash advances. Specifically, we identified 211 instances, totaling more than
                                                                        $53,000, of inappropriate cash advances for travel from April 2012 through March 2013. Management took corrective action during
                                                                        the review. As a result the report contained no recommendations.
Recommendations




                                                                        Travel Expense
                                                                        Reimbursements and            FT-AR-12-014                        9/27/2012                    None
                                                                        Travel Card Usage
                                                                        Report Results: Postal Service employees improperly claimed expenses on their travel reimbursements and inappropriately used
                                                                        their travel cards. Approving managers did not have a mechanism to adequately monitor travel card activity. Also, the Postal Service
                                                                        did not have clear instructions explaining how to handle canceled airfare expenses. As a result, the Postal Service was exposed to
                                                                        inappropriate or fraudulent activity that could harm its reputation. Management agreed, in principle, with the recommendations.

                                                                        Compliance With Travel
                                                                        Policies and Opportunities FF-AR-11-007                        2/9/2011                        $1.2
                                                                        for Cost Savings
                                                                        Report Results: Postal Service employees did not comply with prescribed travel policies resulting in excessive travel costs for
Appendices




                                                                        lodging and airfare in FYs 2009 and 2010. We estimated the Postal Service could realize savings over 2 years by taking action
                                                                        to curtail employee noncompliance with travel policies. Further, the Postal Service did not cancel credit cards issued to former
                                                                        employees, including employees listed as deceased in employee records. Management agreed with the findings and monetary
                                                                        impact and agreed in principle, with the recommendations.


                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                     Print                                   15
Highlights          Appendix B:                                                                              Impact
                                                                        Recommendation                       Category                Amount
                    Other Impact
                                                                                                             Goodwill
                                                                        1                                                            $189,593
                                                                                                             Branding1
                                                                        1	 An actual or potential event or problem that could harm the reputation
                                                                        	 of the Postal Service.


                                                                        For the current review of the Postal Inspection Service and Postal Service Headquarters, we identified 882 cash advances totaling
                                                                        $134,077 unrelated to official travel or in excess of the amount Postal Service policy allows. We also identified 282 purchase
Table of Contents




                                                                        transactions totaling $55,516 that travel card coordinators did not effectively monitor for potential misuse.

                                                                        We claimed $53,000 and $25,430 respectively in the previously issued Southern and Western area reports. We did not claim the
                                                                        $2,844 amount of minor instances found in the previously issued Northeast Area report because we believed the transactions we
                                                                        identified were immaterial.
Findings
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                                 Print                                 16
Highlights          Appendix C:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                        Print   17
Highlights
Table of Contents
Findings




                                                                           Contact us via our Hotline and FOIA forms, follow us on social
                                                                        networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                               or abuse. Stay informed.
Recommendations




                                                                                              1735 North Lynn Street
                                                                                             Arlington, VA 22209-2020
                                                                                                   (703) 248-2100
Appendices




                    Monitoring of Government Travel Card Transactions
                    Report Number DP-MA-14-002
                                                                                                                                                 Print   18
